Hogan Lovells US LLP
Columbia Square
555 Thirteenth Street, NW
Washington, DC 20004
T +1 202 637 5600
F +1 202 637 5910
www.hoganlovells.com

December 13, 2019
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Nestlé USA, Inc. v. John Doe I, et al., No. 19-416

Dear Mr. Harris:
I represent Petitioner in connection with the above-referenced petition for certiorari.
Pursuant to Supreme Court Rule 15.5, Petitioner waives one week of the 14-day waiting
period and requests that the petition and brief in opposition be distributed to the Court on
December 23 for its consideration at the January 10, 2020 Conference. We will submit a reply
brief no later than December 23 so that the Court will have full briefing well in advance of its
Conference.
Thank you.
Respectfully submitted,
/s/ Neal Kumar Katyal
Neal Kumar Katyal
Counsel for Petitioner
cc: Paul Hoffman, Counsel for Respondents

Hogan Lovells US LLP is a limited liability partnership registered in the District of Columbia. “Hogan Lovells” is an international legal practice that includes Hogan Lovells US
LLP and Hogan Lovells International LLP, with offices in: Alicante Amsterdam Baltimore Beijing Birmingham Boston Brussels Colorado Springs Denver Dubai
Dusseldorf Frankfurt Hamburg Hanoi Ho Chi Minh City Hong Kong Houston Johannesburg London Los Angeles Luxembourg Madrid Mexico City Miami Milan
Minneapolis Monterrey Moscow Munich New York Northern Virginia Paris Perth Philadelphia Rio de Janeiro Rome San Francisco São Paulo Shanghai
Silicon Valley Singapore Sydney Tokyo Warsaw Washington DC Associated offices: Budapest Jakarta Shanghai FTZ Ulaanbaatar Zagreb. Business Service
Centers: Johannesburg Louisville. For more information see www.hoganlovells.com

